                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A03120079                                                                               Page 1 of I



        We reviewed 71 grants selected by a random samplingprocedure from NSF Fiscal Year 2001 awards
        for conferences, workshops and symposia. As part of the review, we requested grant financial
        records from each grantee. Where those records indicated possible abuse or were not sufficient for
        our analysis, we opened inquiries to resolve those issues.

        In this instance, our review of the grantee's' records showed that participant support fbnd from an
        NSF grant supporting a biology conference2 appeared to be expended on non-participant support
        items, and the grantee's classification of particular charges appeared questionable. For example, a
        number of items appear unrelated to participant support; a boat trip was classified as lodging,
        supportingdocumentation'was in a foreign language; advertising charges were classified as lodging,
        no documentation was provided for the expenditure of registration fees charged to the NSF award,
        and a number of travel reimbursements had questionable lodging, meals, and miscellaneous charges.

        During the course of this investigation, the grantee provided us with additional documentation to
        explain some charges, reclassified other charges and reimbursed NSF for the remainder, thereby
        resolving the investigative issue^.^

        As part of our review, we inquired about the grantee's system for determining that expenses charged
        to the NSF award wereereasonable,allowable, and allocable. The grantee told us that expenditures
        are reviewed and approved by the PI and a departmental administrator. The grantee's accounting
        department plays no role in the review of reasonableness, allowability, or allocability. Its role is
        limited to confirming that invoices and travel expense reports have proper signatures and that
        documentation is attached. It also checks to see that time sheets are properly signed and
        countersigned. It claims its accounting department does not have the expertise to determine
        appropriateness of charges to an award and said that responsibility rests with the PI and the
        departmental administrator.

        Through dicussions with OIG Audit we concluded that this system did not demonstrate an adequate
        separation of duties or adequate internal controls. OIG Investigationsreferred this issue to OIG Audit
        for review and possible inclusion in the audit plan.

        This case is closed.



          an employee of the grantee.
          The grantee reimbursed NSF      for duplicate non-labor expenses and duplicate travel expenses.




SF OIG Form 2 (1 1/02)
